Pension Benefit Guaranty Corporation
       Office of Inspector General
     Management Advisory Report




Ensuring the Integrity of Policy Research and
Analysis Department’s Actuarial Calculations




               May 21, 2012
                                OIG MAR-2012-10/PA-12-87
                 Pension Benefit Guaranty Corporation
                                                 Office of Inspector General



                        Ensuring the Integrity of Policy Research
                    and Analysis Department’s Actuarial Calculations

                                    Executive Summary


Attached is a Management Advisory Report (MAR) prepared to inform PBGC management
of a serious internal control issue that came to OIG’s attention as a result of the review of a
whistleblower complaint received through the OIG Hotline. Our review confirmed the
complainant’s assertion that the Present Value of Financial Assistance Payments for
multiemployer plans, as reported in PBGC’s FY 2010 Annual Exposure Report issued
November 10, 2011, was unrealistically low. Based on a review of available
documentation, interviews with key PBGC officials, and analysis, we concluded that PBGC
had issued the report with errors and inconsistencies in both the multiemployer and single-
employer sections. This occurred because PBGC had not established a quality control or
quality review process to ensure the integrity of reported actuarial estimates. Early in our
review, the Policy Research and Analysis Department (PRAD) Director acknowledged the
errors and explained that his department did not have policies in place for quality control.

To ensure the quality of actuarial work products issued by PRAD, PBGC should take a
number of actions, including developing, documenting, and enforcing policies and
procedures for quality review of PRAD actuarial work, whether in an issued report or in
response to ad hoc inquiries. Other necessary actions include developing, implementing,
and enforcing policies to ensure the adequate and efficient review of contractor work
performed with PIMS and the retention of supporting documentation for work performed by
PRAD actuaries and of all accepted actuarial contractor deliverables. A strategic review
should be conducted to address the processes involved in creating PRAD actuarial reports
from start to finish. Additionally, PBGC should conduct a records management review of
PRAD to determine what records must be maintained as Federal records.

PBGC’s May 21, 2012 response to the MAR is also included as an attachment. The
response from the Deputy Director for Policy is generally positive and includes a
commitment to strengthening and documenting the quality assurance process, to posting a
corrected report on PBGC’s website, and to noting the errors in the forthcoming FY 2011
Exposure Report. Each of these actions is important and will enhance the integrity of
PRAD’s actuarial work.

PBGC’s response includes the problematic statement, “Last year, we made changes to
ensure such errors do not recur. On the instruction of the PBGC Director, all estimates used
for PBGC reports are now being reviewed outside PRAD.” However, our review showed
that last year’s changed review process was still quite limited in scope and would not likely
prevent the recurrence of errors. In a December 28, 2011 email, the reviewing actuary
documented the results of the changed review process for the FY 2011 Exposure Report:

       … no attempts were made to validate the model inputs or outputs. No
       actuarial analysis was done on either report. That is, the data and
       assumptions used in the modeling were not examined for accuracy or
       completeness. Likewise, the model outputs were not examined for
       accuracy and were taken as given. … To the extent that errors exist in the
       spreadsheets – either in numerical model outputs or the labeling of the
       outputs – the same errors will carry over to the reports. All results were
       hardcoded; no formulas existed in the spreadsheets so it was not possible
       to validate the model results.


The PBGC Director instructed that all estimates used for PBGC reports be reviewed outside
PRAD. However, instead of requesting a quality assurance review, the PRAD Director
implemented the PBGC Director’s guidance by instructing the actuary “to dot our numbers
for the 2011 Exposure Report, both SE and ME.” [emphasis added] As described in the
attached MAR, the process of “dotting” is simply verification that a particular value is
correctly copied and transferred from on place to another. The process of dotting does not
involve verification of underlying calculation or supporting documentation and is not
sufficient for quality control. Thus, based on our review of the changes referenced in the
attached response from PBGC, the revised process is still inadequate to ensure the integrity
of PRAD’s actuarial estimates.

The attached MAR includes a request for PBGC to provide a written response detailing the
actions to be taken to address the reported issues. As part of that response, PBGC should
include information about additional enhancements – over and above the process of
“dotting” – to ensure that the actuarial data published by PBGC is accurate and supported by
appropriate documentation.
                     Pension Benefit Guaranty Corporation
                                                    Office of Inspector General
                                    1200 K Street, N.W., Washington, D.C. 20005-4026


                                                                            May 18, 2012
Josh Gotbaum, Director
Pension Benefit Guaranty Corporation


                           Management Advisory Report

        Ensuring the Integrity of Policy Research and Analysis Department’s
                               Actuarial Calculations

This Management Advisory Report (MAR) is to advise PBGC management of a serious
internal control issue that came to our attention during our review of a complaint received
through OIG’s Hotline. The complainant alleged, among other things, that the Present
Value of Financial Assistance Payments for multiemployer plans, as reported in PBGC’s
FY 2010 Annual Exposure Report, issued November 10, 2011, was unrealistically low.
Our review of the issue confirmed that the figure questioned by the complainant was
indeed incorrect; additionally, we found that the FY 2010 Exposure Report contained
numerous other unsupported and incorrect calculations. These errors and omissions were
not identified and corrected by PBGC prior to publication of the Exposure Report
because the Policy Research and Analysis Department (PRAD) lacked a quality control
or quality review process and thus was unaware of the errors.

This report describes the results of our review of a Hotline complaint. Our review was
neither an audit nor an investigation on this issue; other errors and internal control
weaknesses may be present but not identified by this review, due to the targeted nature of
our work. Additionally, we did not perform tests of the revised actuarial data provided
by PBGC in response to our inquiries. Our work was done in accordance with Quality
Standards for Federal Offices of Inspector General issued by the Council of Inspectors
General on Integrity and Efficiency.

Summary

PBGC issued its statutorily required annual FY 2010 Exposure Report with errors and
inconsistencies in both the multiemployer and single-employer sections. The issued
report did not meet quality information standards for Federal agencies or PBGC policy.
Errors were not identified and corrected before publication of the report because PBGC
had not established a quality control or quality review process to ensure the integrity of
reported estimates. PRAD’s limited review of the report focused on determining that
PBGC staff had accurately copied numerical values from one place to another. PRAD
provided no evidence to show that PBGC reviewed PRAD’s actuarial estimates for the
accuracy of the underlying PIMS input data, calculations or assumptions. Further, based
on our interview with the PRAD Director and staff, we concluded that the underlying
support for PRAD’s actuarial reports was not subjected to any type of documented
Management Advisory Report
Integrity of PRAD’s Actuarial Calculations
Page 2


review. The provision of erroneous information in PBGC’s FY 2010 Exposure Report is
inconsistent with PBGC’s statutory responsibility and could have a negative impact on
PBGC’s reputation. Because the information in the FY 2010 Exposure report is required
by ERISA 1 and has been made publicly available on PBGC’s website, PBGC should
issue a corrected version of the report and ensure that it is disseminated to those who
received the original, incorrect version.

Background

PRAD is the department within PBGC that develops policy for PBGC's insurance
programs and conducts related research and modeling. PRAD’s research encompasses
actuarial and financial issues intended to support policy development and involves
modeling for forecasting purposes. PRAD is one of three departments under the Deputy
Director of Policy within the Office of Policy and External Affairs.

PBGC reports that PIMS is a stochastic (randomly determined) simulation model
designed to quantify the amount of risk facing PBGC’s insurance programs. PIMS has a
database of information about pension plans insured by PBGC, including plan
demographics, plan benefit structure, asset values, liabilities and actuarial assumptions.
The PIMS model produces thousands of projections and generates a range of possible
outcomes for pension plans and for the PBGC. PIMS does not predict future claims, but
instead provides a range of possible future outcomes and quantifies the likelihood of
these outcomes. PBGC uses PIMS to produce reports that provide influential information
for stakeholders, to include PBGC management, PBGC’s Board, the Executive and
Legislative branch staff, Congressional Budget Office, Joint Committee on Taxation,
Office of Management and Budget (OMB), Department of Labor (DOL), Government
Accountability Office (GAO), and private sector employee benefit organizations.

ERISA §4008 requires PBGC to publish an annual report with very specific information,
including a summary of PIMS results with “the specific simulation parameters, specific
initial values, temporal parameters, and policy parameters used to calculate the financial
statements for the corporation.” PBGC describes this as an actuarial evaluation of its
expected operations and financial status. The report – referred to as the Annual Exposure
Report – contains estimates and projections of significant impact for the single-employer
(SE) and multiemployer (ME) programs over the next decade, as well as future position
projections for two decades. To project its long-term exposure to risk, PBGC uses two
systems: the SE Pension Insurance Modeling System (SE PIMS) and the ME Pension
Insurance Modeling System (ME PIMS). The PIMS models rely on various parameters
provided by PBGC analysts and economists, as well as data from other systems/
contractors, in order to produce many scenarios which derive a range of projected
outcomes.


1
    Employee Retirement Income Security Act of 1974, as amended.
Management Advisory Report
Integrity of PRAD’s Actuarial Calculations
Page 3


Review Results

PBGC’s statutorily required FY 2010 Exposure Report contained numerous errors and
inconsistencies and did not meet information quality guidelines for Federal agencies or
PBGC policy. This occurred because PRAD, the department with responsibility for
PIMS and for preparing the actuarial projections, lacked quality control policies and
processes to ensure the validity and accuracy of reported projections. Additionally,
PBGC did not review the accuracy of the projections contained in the 2010 Exposure
Report or retain documentation showing how the projections were derived. In response
to our questions, PRAD attempted to recreate the reported calculations but was unable to
do so. In the process of attempting the recreation of the reported data, PRAD developed
various new spreadsheets. Our review of these recreated spreadsheets led us to identify
additional obvious errors in the spreadsheets, such as the use of data from an incorrect
year.

The errors in the FY 2010 Exposure Report were pervasive, including errors in each of
the three projections relating to PBGC’s multiemployer program and an overstatement of
the degree to which the projected median single employer financial position had
improved since the prior year.

Projection Errors about PBGC’s Multiemployer Program

PBGC’s FY 2010 Exposure Report describes three estimates relating to the future of the
multiemployer program. Each projection is presented as a range, including a “low”
figure at the 15th percentile, a mean figure, and a “high” figure at the 85th percentile.
Since ME-PIMS models a large number of values for each estimate, the reported “low”
figure is intended to represent the dollar value at which 15 percent of the simulations
produced a lesser value and 85 percent of the simulations produced a higher value. The
“high” figure is intended to represent the dollar value at which 85 percent of the
simulations produced a lesser value and only 15 percent produced a higher value. The
“mean” value is reported to be the average of all the various simulations. Each of the
three projections for the multiemployer program presented in the FY 2010 Exposure
Report contained incorrect and unsupported results, as noted below:

   •   Projected new net claims for the years 2011 – 2020. Based on revised data
       provided by PBGC in response to our questions, both the “high” and “low”
       projections of new multiemployer claims over the next ten years were overstated
       by more than $1 billion. The total value of associated discrepancies is $2.8 billion
       as shown in the chart below.
  Management Advisory Report
  Integrity of PRAD’s Actuarial Calculations
  Page 4




                    Projected New Net Claims 2011 – 2020
                                          (numbers in billions)


As reported by PBGC
                         4    6     8    10      12      14     16     18    20   22    24    26     28     30     32
                             $5.8                                   $17.1                                   $31.4
After additional
support from PBGC
                         4    6     8    10      12      14     16     18    20   22    24    26     28     30     32
                        $4.7
                        $4.7                                        $17.1                             $29.7
                                                                                                     $29.7
Discrepancies
of $2.8 billion         $1.1                                                                              $1.7




      •   Projected 2020 multiemployer financial position. Based on revised data provided
          by PBGC in response to our questions, both the “high” and “low” projections
          were overstated, leading to an understatement of the projected deficit. That is, at
          the 15th percentile, the projected financial position for 2020 is about $2.6 billion
          less than reported and at the 85th percentile, about $.3 billion less than reported.
          The total value of the associated discrepancies is $2.9 billion as shown in the
          chart below.



                     Projected 2020 ME Financial Position
                                              (numbers in billions)


  As reported by PBGC
                             -20 -18     -16       -14        -12     -10   -08   -06   -04    -03    -02        -01    0
                                  -$18                                  -$9.4                                      -$.4
 After additional
 support from PBGC
                             -20 -18     -16       -14        -12     -10   -08   -06   -04    -03    -02        -01    0
                         -$20.6                                         -$9.4                                -$.7
  Discrepancies
  of $2.9 billion            $2.6                                                                                  $.3
Management Advisory Report
Integrity of PRAD’s Actuarial Calculations
Page 5


   •   Projected financial assistance payments for the years 2011 – 2020. Instead of the
       reported range of $.4 to $2.0 billion, based on revised data provided in response to
       our questions, PBGC now asserts that the correct range is $.9 to $1.2 billion. The
       total value of the discrepancies is $1.3 billion – an amount that is greater than the
       estimated mean – as shown in the chart below.




       Projected Financial Assistance Payments 2011 – 2020
                                   (numbers in billions)


       As reported by PBGC
                                        0          0.5       1      1.5    2
                                              $.4            $1.2         $2.0

       After additional support
       from PBGC
                                         0        0.5        1      1.5    2
                                                         $.9 $1.2
       Discrepancies
       of $1.3 billion                              $.5             $.8


Our review also disclosed errors in one of the graphs included in the multiemployer
section of the FY 2010 Exposure Report. For the graph titled “PBGC’s Potential 2020
ME Financial Position,” the line showing the number of simulations out of 500 was
drawn based on incorrect data (see page 12 of the Report).


In some instances, the errors in projections created additional issues in the report’s
explanatory narrative. For example, based on the reported range of projected financial
assistance payments over the next ten years – between $0.4 and $2.0 billion – PBGC’s
FY 2010 Exposure report stated, “Financial assistance payments vary within this range
by a factor of five…” (see page 11 of the Report). However, given the revised range that
varies between $0.9 and $1.2 billion, a more correct analysis would have been that
financial assistance payments vary within this range by a factor of 1.3.

Finally, we note that a PRAD official described these issues as “transcription errors.”
However, since PRAD did not retain the original supporting documentation, we cannot
confirm whether these errors resulted from transferring an incorrect figure from the
original spreadsheets to the report or from some other source.
Management Advisory Report
Integrity of PRAD’s Actuarial Calculations
Page 6


Projection Errors about PBGC’s Single-Employer Program

Issues with PBGC’s FY 2010 Exposure Report were not limited to the section addressing
the multiemployer program. An effective quality control process would likely have
identified an inconsistency in reporting for the single-employer program that caused
PBGC to overstate the amount of improvement compared to the prior year with regard to
the median financial position for 2020. That is, for FY 2009, PBGC reported the
projected median financial position for 2019 to be $25.0 billion. In some instances (e.g.,
the graph on page 9 of the report), this amount was accurately transcribed to the FY 2010
report. However, in the section of the FY 2010 report titled “Projected financial position,
single-employer program – Comparison with 2009 outcomes, by financial position,”
PBGC incorrectly reported the prior year’s projected median financial position for 2019
to be $25.7 billion instead of $25.0 billion (see page 8 of the Report). The accompanying
analysis went on to state: “The median in the 2020 projection improved by $4.4 billion
over the 2019 projection….” A more correct analysis would have shown the
improvement in projected financial position to be $3.7 billion instead of the reported $4.4
billion.

Internal Controls Needed

The PRAD Director acknowledged the errors noted above, explaining that his department
did not have policies in place for quality control. Based on our discussion with the
PRAD Director and our review of the limited documentation provided, we identified
specific areas where internal controls should be established or enhanced.


•   Accuracy and Completeness. Each projection, statistic, and statement of fact reported
    in the Annual Exposure Report should be subject to a review or other control
    technique to ensure accuracy and completeness. The lack of such a review is a
    serious shortcoming; each of the issues we identified could have been readily found
    and corrected if a qualified second party had reviewed the material to confirm its
    accuracy, completeness, and consistent presentation.

•   Quality Standards. According to the PRAD Director, PRAD employees need more
    detailed standards specific to their duties because actuarial standards are broad. Our
    interviews with the PRAD Director and PRAD staff revealed a casual attitude toward
    ensuring the quality of actuarial projections. PRAD staff advised that there are no
    formal policies for review of actuarial work, including the work of their contractors.
    They explained that the primary method of review involves spot checking output,
    with the objective of looking for items that do not “look right.”

•   Identification and Retention of Federal Records. When requested, PBGC produced
    only very limited records to support the numbers in the FY 2010 Annual Exposure
    Report– that is, the documentation produced for the parameters or inputs into PIMS
Management Advisory Report
Integrity of PRAD’s Actuarial Calculations
Page 7


    could not be reliably traced to the FY 2010 Exposure Report, and there was no
    information supporting the outputs. 2 PBGC had no process for PRAD employees to
    identify supporting documentation for the Annual Exposure Report as “federal
    records” or to retain supporting documents, including the accepted deliverables
    prepared by the actuarial contractor, as required by federal law.


Need for a Quality Review Process
Our interviews demonstrated the low priority that PRAD management and staff placed on
review of actuarial work (both federal and contractor) and acceptance of the contractor’s
deliverables. No one had accepted personal responsibility for ensuring the quality of
reported actuarial projections prepared by the actuarial contractor. When questioned
about ensuring the quality and accuracy of contractor work, the PRAD Director referred
us to the PIMS Contracting Officer’s Representative (COR). The COR, in turn,
explained his belief that review of contractor work was the responsibility of the SE and
ME financial analysts, individuals that he considered to be “technical monitors.” Our
interviews of these analysts demonstrated a similar lack of understanding for necessary
contractor oversight and acceptance of work. In responses to questions about the concept
of contract monitoring, one analyst stated, “I don’t know how PIMS calculations and
input from contractors are monitored.” Another asserted that a review was based on
“professional judgment, education, and experience.”

In support of their contention that they are diligent in overseeing the contractor, PRAD
provided various documents including emails between PRAD staff and its contractor, a
statement of the contractor’s general quality review process, and multi-page weekly
status reports prepared by the contractor. While these documents show that PRAD staff
met and communicated regularly with the contractor to discuss various PIMS issues, they
do not demonstrate a federal employee’s oversight and acceptance of the contractor’s
work produced. That is, the documentary evidence provided does not show that the work
produced by the actuarial contractor had been reviewed by PBGC for acceptability,
quality, or compliance with contract terms.

PRAD management and staff did not seem to have a good understanding of the need for
review or an understanding of how quality review of a contractor’s product should be
documented. PRAD officials asserted that the actuarial contractor performed certain
reviews and provided a document in support of the claim. However, our assessment of
the document purporting to show the contractor’s review disclosed it to be a listing of
reports or other runs from PIMS; the document provided no evidence or verification that
a PRAD employee reviewed the accuracy or quality of the work listed. As a further
example, while one financial analyst stated that there were informal assessments of the
contractor‘s work, the analyst did not provide any documentation of the informal
2
  To support the outputs, PRAD provided an excel spreadsheet , but it was void of formulas and
calculations.
Management Advisory Report
Integrity of PRAD’s Actuarial Calculations
Page 8


assessments and stated that he was not aware of any requirement to submit
documentation to the COR showing review of contractor deliverables.

Similarly, PBGC produced no evidence to show that the work performed by PBGC
actuarial analysts for this Exposure Report was reviewed. Because PBGC did not
establish a quality control process, the 2010 Exposure Report was released with errors
and inconsistencies in both the ME and SE sections. Every ME projection and a chart in
the ME section included erroneous and unsupported information. While the dollar value
of the variances might not be considered large by some, the fact that incorrect or
unsupported information was reported is significant.

OMB and PBGC Quality Guidelines

In response to Congressional mandate, OMB developed Federal information quality
guidelines to maximize the quality, objectivity, utility, and integrity of information,
including statistical information, disseminated by Federal agencies. OMB guidance 3 and
PBGC policy for information quality programs state that “information,” when used in the
phrase "influential scientific, financial, or statistical information" means that:

        the agency can reasonably determine that dissemination of the information
        will have or does have a clear and substantial impact on important public
        policies or important private sector decisions.

PBGC restates this definition in its Information Quality Guidelines published on the
internet, and provides further definition of “clear and substantial.” PIMS is used to
produce influential information that should be subjected to appropriate internal control
processes or quality review practices to ensure the quality, objectivity, utility and
integrity of that information. Thus, PRAD’s quality control process should, at a
minimum, be consistent with PBGC’s published Information Quality Guidelines.


“Dotting” Not Sufficient as a Quality Control

Since the time of our initial inquiry, PBGC provided documentation showing that the
Corporation has increased efforts to review actuarial work and to show that reports are
now “dotted” for accuracy. However, according to the PRAD director, dotting is simply
verification that a particular value is correctly copied and transferred from one place to
another. The process of dotting does not involve verification of underlying calculations
or supporting documentation.


3
  On February 22, 2002, OMB issued final guidance for implementing Section 515 of the Treasury and
General Government Appropriations Act for Fiscal Year 2001 (December 21, 2000), that mandated
federal agencies to adopt data quality standards.
Management Advisory Report
Integrity of PRAD’s Actuarial Calculations
Page 9


Peer Review As a Useful Quality Control Process
The American Academy of Actuaries (as well as the other U.S.-based actuarial
organizations) has adopted a Code of Professional Conduct for the purpose of requiring
actuaries to “adhere to the high standards of conduct, practice, and qualifications of the
actuarial profession.” This Code has 14 Precepts, with “Annotations” for each Precept
that provide “explanatory, educational, and advisory material on how the Precepts are to
be interpreted.” That Code states, in part:

        Professional Integrity

        Precept 1. An Actuary shall act honestly, with integrity and competence,
        and in a manner to fulfill the profession’s responsibility to the public and
        to uphold the reputation of the actuarial profession.

            Annotation 1-1. An Actuary shall perform Actuarial Services with skill
            and care.

The Academy has recognized that peer review, though not required by the Code of
Conduct, is a useful technique for an actuary to demonstrate compliance with the Code.
In 2005, the Academy’s Committee on Professional Responsibility issued a Discussion
Paper entitled “PEER REVIEW Concepts on Professionalism,” 4 stating:

        Annotation 1-1 to Precept 1 of the Code provides, “[a]n Actuary shall
        perform Actuarial Services with skill and care.” By having a second
        qualified professional review a work product prior to its release to its
        intended users(s), a preparing actuary arguably may reduce the likelihood
        that significant errors or omissions in a final work product released to a
        user will be found, increasing the likelihood that the final work product
        will have been prepared with skill and care.

PBGC has many actuaries working in several different departments; so when considering
whether to have peer review as part of PRAD’s quality review process, there is an
opportunity to have an “external” peer review performed by actuaries outside of PRAD,
in addition to any internal review within PRAD.

It is important for PBGC to establish a quality review process for PRAD’s
actuarial work products and reports. Stakeholders are likely to refer to PBGC-
reported information when making strategic decisions affecting pension policies
and laws, and impacting millions of pensioners. PBGC’s reputation as a leader in
encouraging the continuation and maintenance of voluntary private pension plans
for the benefit of their participants, carried out under ERISA, may be negatively
impacted.
4
 American Academy of Actuaries, Council on Professionalism, Committee on Professional
Responsibility, Professionalism Series, 2005 · No. 1-A.
Management Advisory Report
Integrity of PRAD’s Actuarial Calculations
Page 10


Need to Retain Accurate Records to Support PBGC Decisions

Federal agencies must keep records of their activities. A “record” is broadly defined to
include:

          all … documentary materials, regardless of physical form or
          characteristics, made or received by an agency of the United States
          Government under Federal law … and preserved or appropriate for
          preservation by that agency … as evidence of the organization, functions,
          policies, decisions, procedures, operations, or other activities of the
          Government…. 5

Records are to be complete and accurate to the extent required to document the agency’s
actions and complete and accurate in their preservation. 6

In response to our initial requests, PRAD did not produce any documentation related to
the PIMS modeling for the FY 2010 Exposure Report – not the data that was used in the
simulations, the parameters that were established, or the outputs. After OIG provided the
MAR, PBGC undertook an intensive search of back-up tapes for documents to support
the erroneous numbers. Though many documents were located, none clearly supported
the FY 2010 Exposure Report numbers cited in this MAR. Thus, we conclude PRAD
failed to retain the documentation that supports the numbers reported in the FY 2010
Exposure Report, and no one can now validate the adequacy, accuracy, or completeness
of that work. PRAD has since re-run the PIMS projections and now asserts that the
revised projections are the correct numbers for the FY 2010 Exposure Report. PBGC
states it has taken steps to ensure retention of the revised supporting documentation and,
therefore, considers that the Corporation is in compliance with Federal records retention
requirements. However, we note that the FY 2010 Exposure Report as currently
published remains unsupported. Until that report is revised and re-published, PBGC is
not in compliance with Federal record retention requirements.

PIMS supports many PBGC products and activities. In addition to the annual
exposure report discussed here, PIMS runs are used to:

      •   Provide data to the Administration and Congress to evaluate the potential impact
          of legislative, regulatory or policy pension proposals.
      •   Produce special analyses requested by the Government Accountability Office and
          others to assess the financial condition of PBGC’s programs.




5
    44 U.S.C. § 3301.
6
    36 C.F.R. § 1220.14.
Management Advisory Report
Integrity of PRAD’s Actuarial Calculations
Page 11


   •   Conduct the ERISA 4022 required quinquennial (5 year) studies of the ME
       insurance program to determine the adequacy of multiemployer premium rates
       and benefit guarantees.
Thus, the data produced by PIMS is used in federal decision-making and in official
government publications and documents and, as such, it should be accurate and complete,
with supporting documentation (including any accepted deliverables prepared by the
actuarial contractor) retained as a Federal government record. Issuance of PBGC
actuarial reports and analyses containing inconsistent, incorrect, or unsupported actuarial
estimates does not meet Federal requirements.

Review of Supplemental Material

This report is a revision of a MAR originally issued on May 7, 2012. OIG provided
PBGC officials, including the PRAD Director, a draft of this report on April 12, after
months of document requests and receipt of minimal information. Subsequent to issuing
the draft, OIG officials engaged in further substantive discussions with PRAD and with
PBGC leadership, including the PBGC Director. Some additional material was provided
and the draft report was revised to incorporate that information. Subsequent to our
issuance of the May 7 report, the PRAD Director asserted that he had substantial material
that had not been previously provided. He believed this material showed errors in our
report and would cause us to revise our conclusions.

OIG reviewed the supplemental material provided by the PRAD Director and amended
the report to reflect the additional data where appropriate. However, our overall
conclusions were unaffected by the additional documents, as the vast majority of the
material provided did not provide relevant support for the FY 2010 Exposure Report or
confirm review of PRAD actuarial work or contractor deliverables.

Some of the issues with the supplemental materials provided include:

   •   Several of the supplemental documents provided included the phrase “sign off”
       and the PRAD Director asserted that this demonstrated review of contractor work.
       However, our assessment showed that PRAD officials used the phrase “sign off”
       when authorizing the contractor to take a particular action. For example, an email
       from the actuarial contractor stated, in part, “In the interest of time, I’m attaching
       the SE-PIMS experience mortality spec … so that you can sign off [emphasis
       added] for us starting similar enhancement to ME-PIMS.” Within the hour, the
       PRAD analyst responded “If this email constitutes “signing off”’ on the proposed
       ME enhancement, then yes, I’ll sign off on it.” Thus, it appears that “signing off”
       was considered an authorization to proceed, not a review of submitted work.
       Given that the documents using the phrase “sign-off” could not be directly linked
       to submitted contractor deliverables or to specific review results, we did not
Management Advisory Report
Integrity of PRAD’s Actuarial Calculations
Page 12


       conclude that the emails and listings showed evidence that contractor deliverables
       had been reviewed. 


   •   Almost all of the documentation (other than emails) purporting to show contractor
       oversight was on contractor letterhead, and prepared by the actuarial contractor
       and not PBGC. Thus, we did not consider the contractor’s status and progress
       reports as evidence of PBGC’s review of deliverables. 

   •   A document that appeared to be a spreadsheet was actually a series of numbers
       that had been cut and pasted from some other source. There were no indications
       of how the numbers were calculated or derived. 
        
   •   In response to our request for documentation of parameters used, PRAD provided
       part of a 300-page “run report,” however, this contained no documented
       connections to the outputs that appeared in the FY 2010 Exposure Report.

   •   On April 20, 2012, PRAD advised OIG that only limited information had been
       produced in an extensive search of electronic resources; PRAD noted that the ME
       analyst’s “Sent” folder – a place where emails explaining how values were
       derived for the Report might be found -- was empty. Except for one file
       demonstrating that PRAD had used the wrong number of years in a calculation,
       no electronic files were located showing the source of the other incorrect
       information. Therefore, OIG concluded that PRAD would not likely find
       additional relevant information. 


Necessary Actions

To ensure the quality of actuarial work products issued by PRAD, PBGC should:

   •   Conduct a thorough review of the 2010 Exposure Report to identify any other
       errors or inconsistencies.

   •   Correct all identified errors and inconsistencies and prepare a revised FY 2010
       Annual Exposure Report. This report should be identified as revised and reflect
       the date of reissuance.

   •   Reissue the corrected FY 2010 Exposure Report in the same manner in which the
       original report was issued by sending it to parties who received it and posting the
       updated Report (identified as revised with a new issue date) on PBGC’s external
       website.
Management Advisory Report
Integrity of PRAD’s Actuarial Calculations
Page 13


   •   Develop, document and enforce policies and procedures to ensure the adequate
       and efficient review of contractor work performed with PIMS, including
       enumerating duties and assigning responsibilities for the accuracy and integrity of
       critical reports.

   •   Develop, document and enforce policies and procedures for a quality review of
       actuarial work reported by PBGC, whether in an issued report or in response to ad
       hoc inquiries. This process should include clearly defined duties and assigned
       responsibilities, as well as methods to validate and clearly identify all supporting
       documentation. Documentation should be retained of any issues noted as well as
       of the actions taken in response to the issues.

   •   Develop, document and enforce policies and procedures to retain supporting
       documentation of work done by PRAD actuaries and of all accepted actuarial
       contractor deliverables.

   •   Conduct a records management review of PRAD to determine what records must
       be maintained as Federal records.

   •   Consistent with information quality guidelines for Federal agencies and PBGC
       policy, develop and document a strategic review of the processes involved in
       creating actuarial reports from start to finish, so that critical control points,
       including input and output, can be established in order to increase quality control.


Within 60 days of receipt of this Management Advisory, please provide a written
response detailing the actions taken to address the reported issues. If you have questions
or would like to discuss this Management Advisory, please feel free to contact Rebecca
Anne Batts, Inspector General, at (202) 326-4000, ext. 3437, or Deborah Stover-Springer,
Deputy Inspector General, at (202) 326-4000, ext. 3877.
Attachment
Management Advisory Report
Integrity of PRAD’s Actuarial Calculations
ATTACHMENT




              PENSION BENEFIT GUARANTY
                    CORPORATION’S
                     RESPONSE TO
             MANAGEMENT ADVISORY REPORT
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
